<html>
<title> - ACHIEVING E-GOVERNMENT EFFICIENCIES AT THE OFFICE OF PERSONNEL MANAGEMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    ACHIEVING E-GOVERNMENT EFFICIENCIES AT THE OFFICE OF PERSONNEL 
                               MANAGEMENT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TECHNOLOGY, INFORMATION
                POLICY, INTERGOVERNMENTAL RELATIONS AND
                               THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2003

                               __________

                           Serial No. 108-134

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

930359              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Technology, Information Policy, Intergovernmental 
                        Relations and the Census

                   ADAM H. PUTNAM, Florida, Chairman
CANDICE S. MILLER, Michigan          WM. LACY CLAY, Missouri
DOUG OSE, California                 DIANE E. WATSON, California
TIM MURPHY, Pennsylvania             STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                        Bob Dix, Staff Director
                 Scott Klein, Professional Staff Member
                      Ursula Wojciechowski, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2003...............................     1
Statement of:
    James, Kay Coles, Director, Office of Personnel Management...     5
    Koontz, Linda D., Director, Information Management, U.S. 
      General Accounting Office; Norman Enger, E-Government 
      Project Director, Office of Personnel Management; plus 
      additional witnesses for questions segment: Rhonda K. Diaz, 
      Program Manager, Enterprise HR Integration; Janet M. 
      Dubbert, Program Manager, E-Payroll; Mike A. Fitzgerald, 
      Program Manager, E-Training; Claire M. Gibbons, Program 
      Manager, Recruitment One-Stop; and Mark White, Acting 
      Program Manager, E-Clearance...............................    22
Letters, statements, etc., submitted for the record by:
    Enger, Norman, E-Government Project Director, Office of 
      Personnel Management, prepared statement of................    57
    James, Kay Coles, Director, Office of Personnel Management, 
      prepared statement of......................................     8
    Koontz, Linda D., Director, Information Management, U.S. 
      General Accounting Office, prepared statement of...........    24
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................     3

 
    ACHIEVING E-GOVERNMENT EFFICIENCIES AT THE OFFICE OF PERSONNEL 
                               MANAGEMENT

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2003

                  House of Representatives,
   Subcommittee on Technology, Information Policy, 
        Intergovernmental Relations and the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Adam Putnam 
(chairman of the subcommittee) presiding.
    Present: Representative Putnam.
    Staff present: Bob Dix, staff director; John Hambel, senior 
counsel; Scott Klein, professional staff member; Ursula 
Wojciechowski, clerk; Suzanne Lightman, fellow; David McMillen, 
minority professional staff member; and Cecelia Morton, 
minority office manager.
    Mr. Putnam. A quorum being present this hearing of the 
Subcommittee on Technology, Information Policy, 
Intergovernmental Relations and the Census will come to order.
    Good morning, everyone, and welcome to this important 
discussion of E-gov initiatives. I hope everyone had a safe and 
productive weekend, avoiding the impact of Hurricane Isabel. I 
never thought that I would say that I would have to go to 
Florida to flee a hurricane, but that's what I did over the 
weekend, and so hopefully you and your families and your homes 
were spared the damage from Isabel and from the rains last 
night.
    We will get right to the hearing.
    This hearing is a continuation of the aggressive oversight 
by the subcommittee seeking to keep Federal Government agencies 
and decisionmakers focused on meeting the goals of the E-
government Act of 2002, which were: greater accessibility to 
government by citizens and businesses; improving government 
efficiency and productivity which enhanced customer service; 
facilitating coordination cross-agency; and realizing tangible 
cost savings to the taxpayers through the use of 21st century 
technology and best practices throughout the Federal 
Government.
    Despite its distinction as the largest information 
technology purchaser in the world, the Federal Government has a 
tradition of buying and maintaining thousands of stovepiped 
systems that operate separately from other agencies and are not 
interoperable. Great strides have been made to improve 
productivity and results from IT investments. But for too long 
individual agencies have pursued their own individual IT 
agendas that do not emanate from customer service or sound 
business processes. We recognize that simply getting a handle 
on what systems exist and agreeing to a unified plan to 
coordinate this disparate IT environment is a monumental task. 
But the task must be done and done soon.
    In March, this subcommittee held its first hearing on E-
government, reviewing the 24 Quicksilver initiatives and 
initial progress resulting from the E-gov Act of 2002. At that 
hearing we discovered several examples of progress being made 
as well as challenges that continue to be more people- and 
management-based than technological or financial based.
    Today, the subcommittee will focus in much greater detail 
on 5 of the 24 major E-gov initiatives being implemented across 
the government consistent with the E-gov Act and the 
President's management agenda. Specifically, we will be 
examining the progress being made by the Federal Government to 
implement those key initiatives intended to improve Federal 
employee recruitment, employee training, management of payroll, 
management of employee data and employee security clearance 
processes. For those inclined to speak the language of E-gov, 
that would be the following five entitled initiatives: E-
clearance, E-training, Recruitment One-Stop, Enterprise HR 
integration, and E-payroll.
    The E-government Act passed by Congress last year 
designates OMB as the lead organization for all Federal 
Government IT purchasing and planning, including implementation 
of governmentwide E-gov initiatives. OMB was invited to 
participate and provide testimony at this hearing, and until 
yesterday morning that participation was confirmed and 
anticipated. Yesterday, however, the subcommittee was advised 
by OMB that there was a conflict in the availability of Mr. 
Clay Johnson and that he would be unable to participate in this 
oversight hearing.
    While the subcommittee and I, as chairman, are very 
disappointed at this development, we are nonetheless very 
pleased to be joined by the distinguished director of the 
Office of Personnel Management and a number of her colleagues. 
The Office of Personnel Management has been designated by the 
Office of Management and Budget as the lead agency for the five 
personnel-related E-gov initiatives.
    We are pleased to have as witnesses today the leadership 
and management associated with those initiatives to provide us 
with the detailed update on the progress and the challenges 
that we face in making these internal efficiency and 
effectiveness initiatives a success both for the Federal 
Government and for the American taxpayer.
    As with all of our subcommittee hearings, we can be viewed 
live via Webcast by going to Reform.House.Gov and clicking on 
live committee broadcast.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T3035.001
    
    [GRAPHIC] [TIFF OMITTED] T3035.002
    
    Mr. Putnam. With that, as is the custom with this 
committee, I would ask that Ms. James please rise for the oath.
    [Witness sworn.]
    Mr. Putnam. Note for the record that Ms. James responded in 
the affirmative.
    We again welcome you to the subcommittee, and let me just 
give a brief biography of our distinguished panelists.
    On July 11, 2001, Kay Coles James was confirmed by the U.S. 
Senate to be Director of the U.S. Office of Personnel 
Management. In that role, Director James is the President's 
principal advisor in matters of personnel administration for 
more than 1.8 million Federal employees.
    Since arriving at OPM, Director James and her agency have 
taken on new responsibilities including HR integration at the 
Department of Homeland Defense, the human capital portion of 
the President's management agenda, the creation of employee 
flexible spending accounts, new Federal long-term care 
insurance and, of course, the five E-government initiatives 
before United States today. In some circles Director James is 
most recognized and popular for making the ultimate decision 
last week that resulted in a 4-day weekend for D.C. area 
residents.
    Director James, we appreciate your being with us this 
morning, and you're recognized for your statement.

  STATEMENT OF KAY COLES JAMES, DIRECTOR, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Ms. James. Thank you very much, Mr. Chairman; and I 
appreciate the opportunity to be here with you.
    I'm particularly excited about the opportunity to talk 
about something other than how the decision to close Federal 
Government was made last Wednesday. We have a battle cry at 
OPM. It's called ``beyond snow.'' It has been changed now to 
say ``beyond hurricanes'' to communicate to the public that 
there is some very important work going on at OPM other than 
just those kinds of things. So I appreciate your oversight and 
appreciate the opportunity to be here this morning to talk 
about something beyond snow. So thank you for the opportunity 
to talk about E-gov.
    I would ask at the outset that my full testimony be entered 
into the record, and I will do an abbreviated opening 
statement.
    It's great, as I said, to be here to report on our 
agencies' E-government initiatives which will eventually yield 
$2.7 billion in tax savings over the life of the initiatives 
and produce unprecedented increases in efficiency and 
effectiveness of the management of the government's human 
capital resources. I will be discussing today five of the E-
government initiatives outlined in the President's management 
agenda, President Bush's strategy for making the Federal 
Government more focused on citizens and results.
    The Office of Personnel Management, as you have stated, is 
the managing partner for five of the Presidential E-gov 
initiatives: Recruitment One-Stop, E-clearance, E-training, E-
payroll and Enterprise Human Resource Integration.
    The goal of the Recruitment One-Stop initiative is to 
improve the process of locating and applying for Federal jobs. 
When I originally testified and before the U.S. Senate in my 
confirmation hearings, applying and the recruitment process was 
identified as one of the major areas that needed to be fixed; 
and Recruitment One-Stop certainly is a step in that direction.
    As part of this initiative, our new USAJOBS Web site 
shakedown cruise, as we like to call it, was launched last 
month in a real-time trial run which allowed us to ask for and 
respond so customers' requests and comments. The site now has a 
new look and a clean feel, bright and easy to navigate. A new 
full text job search function was introduced as well as a 
streamlined resume builder.
    Since the launch there have been 4\1/2\ million unique 
visitors to the new site. That's an increase of more than 400 
percent from the month before the new site was launched.
    We launched the site on August 4 and in the 7 weeks since 
then there have been over 101 million page views, more than 9 
million visits and close to 8,000 unique visitors. There are 
approximately 15,000 new resumes created each week on the site. 
The numbers are staggering. Job seekers who put their resumes 
on our Web site are able to search for jobs automatically and 
receive notice of these postings on a daily basis. They're able 
to sign up for automatic e-mail notification when the type of 
job they're looking for opens up.
    Since launch we have received more than 15,000 E-mail 
communications from job seekers, and the revamped Web site 
features a quicker job search engine.
    E-clearance. The frustrations with delays in the national 
security application and update process since September 11 has 
been felt by the Department of Homeland Security, the 
administration and indeed the Congress. The OPM E-clearance 
initiative will improve and speed the processing of 
investigations for security clearances.
    There are several components of our E-clearance improvement 
process, but probably the most visible will be the Electronic 
Questionnaire for Investigations Processing. This is an 
automated on-line version of the SF-86 paper-based security 
clearance application that has been welcomed by current Federal 
employees as well as new employees. People are very excited 
about that.
    The vision for the E-training initiative is the creation of 
a premiere governmentwide environment that supports the career 
development of the Federal work force. I can tell you, Mr. 
Chairman, that being briefed on this is one thing, but actually 
seeing it in function and operating is truly exciting, and I 
believe that our Federal work force is going to be very, very 
excited about this as they become more aware about it.
    Since the launch on July 23 the government on-line learning 
center has had 1 million unique visits and has had over 50,000 
courses completed by 86,000 registered users around the world. 
Incidentally, about 50 percent of those users are from the 
Department of Defense, so we actually have soldiers in Iraq and 
Afghanistan using our E-training programs to continue their 
education as they defend our freedom abroad.
    On September 17, something I think this committee would be 
very interested in, we launched our E-training Module 3, which 
includes the IT work force development road map and allows 
Federal IT personnel to complete skill gap analysis, create 
individual development plans and access additional resources.
    The Enterprise Human Resources Integration is a term that 
you can expect to hear a lot more about in years to come. Once 
developed, EHRI will be a comprehensive electronic personnel 
recordkeeping and analysis system. We are very excited about it 
and the cost savings that will be realized as a result of it.
    And speaking of money, we are also consolidating and 
streamlining the Federal payroll process through our E-payroll 
initiative. The E-payroll initiative consolidates some 22 
separate Federal payroll systems to two systems which will 
simplify and standardize the Federal payroll. The E-payroll 
will save taxpayers about $1.1 billion over the next 10 years. 
Those are large numbers indeed.
    Mr. Chairman, the President expects results. He expects 
that of his managers and he expects that of the programs that 
he oversees. E-gov is producing results, and they are producing 
results today. The results are tax dollars saved, government 
efficiency enhanced and the American citizen better served by 
their government. For those of us who started out as students 
of war in distant lands and could never have imagined a world 
where war could be brought right into our very cities, this is 
a time of vigilance and security. A government that embraces 
the technological advancements available today is a necessity; 
and with E-gov, we're doing precisely that.
    With that, Mr. Chairman, I am happy to answer any questions 
that you may have.
    Mr. Putnam. Thank you very much, Director James.
    [The prepared statement of Ms. James follows:]

    [GRAPHIC] [TIFF OMITTED] T3035.003
    
    [GRAPHIC] [TIFF OMITTED] T3035.004
    
    [GRAPHIC] [TIFF OMITTED] T3035.005
    
    [GRAPHIC] [TIFF OMITTED] T3035.006
    
    [GRAPHIC] [TIFF OMITTED] T3035.007
    
    [GRAPHIC] [TIFF OMITTED] T3035.008
    
    [GRAPHIC] [TIFF OMITTED] T3035.009
    
    [GRAPHIC] [TIFF OMITTED] T3035.010
    
    [GRAPHIC] [TIFF OMITTED] T3035.011
    
    Mr. Putnam. We have a lot of ground to cover today. We have 
five key initiatives that we discussed earlier, and I don't 
want to dwell on any one of them, but I do want you to comment, 
if you would, on the status of the Recruitment One-Stop 
procurement and any action that you may have taken to ensure 
fairness and openness and a deliberate process for the future.
    Ms. James. OPM is tasked with, as I said, five E-government 
initiatives. These are very huge processes. Underlying all of 
them is the desire to provide efficient services to the 
American people to make their government more accessible and to 
also provide efficiencies for our current work force. In doing 
that, it is absolutely imperative that the process that we have 
in place to get us where we need to be be processes that are 
trusted and are respected.
    We did several things within OPM to make sure that those 
processes are protected. I think the two most important are 
building the internal capacity by bringing on subject matter 
experts in procurement so that they can give us the best advice 
possible and to handle these procurement processes with 
professionalism and with expertise and with fairness.
    Also, I want to make sure that our processes are, in fact, 
as we hope they are, to be balanced and fair and open; and so, 
as a result of that, I asked for an independent audit by our 
Inspector General to look at them and make sure that those 
processes are handled that way and relying heavily upon his 
advice and expertise in doing that. So I think those two things 
will assure that.
    The other thing that I think is important is ensuring that 
we are getting the best use of our procurement dollars. We want 
to make sure that all of our contractors are benchmarked and 
are in fact results oriented in producing what they say they 
can and in a timely matter. So there's a great deal of 
oversight that's involved.
    Mr. Putnam. Thank you very much.
    On the payroll issue, the savings that you project that 
would be realized, are they civilian only or is that across the 
entire Federal Government?
    Ms. James. I think they're civilian only. I'm not sure.
    They are. The experts are on this row. I will turn to them 
frequently and look for the nod of the head.
    Mr. Putnam. So the payroll issue and the recruitment issue 
are civilian issues only, is that correct?
    Ms. James. That's correct.
    Mr. Putnam. OK. What types of discussions are taking place 
with the DOD to try to bring them along to try to consolidate 
their payroll systems as well?
    Ms. James. DOD is special. We have continuing ongoing 
dialog with the Department of Defense, and I know that they are 
as committed as we are at OPM to implementing the President's 
agenda. Some portions of DOD are a little slower to come along 
than others, but I'm sure we'll get where we need to be. We 
have a constant dialog. We are constantly involved in 
communications. We are constantly involved in collaboration, 
and I am confident that eventually we'll get to where we need 
to be.
    Mr. Putnam. Is the Enterprise HRI included in DOD also or 
is that civilian only also?
    Ms. James. That is civilian also. We don't do--are we going 
to do any military on the HRI?
    Civilian, yes. But military--I think that later we will 
have the subject matter experts in a panel who can ask--answer 
some of the specifics that you may have about some of the 
programs.
    Mr. Putnam. Will the payroll system be linked with OMB's 
financial management system so that they have a better track of 
cash-flow?
    Ms. James. You know, it is--yes, it will be. There will be 
a wealth of data that we are able to collect with our new 
systems, EHRI as well as payroll and others; and at OMB they 
will be able to access those data bases and do much better 
analysis. They will be able to do much better projections as a 
result of that.
    Mr. Putnam. On the E-clearance side, how successful do you 
project that it will be in reducing the backlog in time and in 
dollars in moving those processes along but maintaining their 
integrity?
    Ms. James. You know, I think prior to September 11 we at 
OPM did not fully comprehend sufficiently our mission; and as a 
result of September 11 we really have changed our mission 
statement to respond to the new realities. We didn't view 
ourselves as a national security agency, but in many senses we 
are with the responsibility that we have for E-clearances 
when--in fact, you know, when you look at the DOD piece and the 
OPM piece and the fact that they're now in communication about 
doing a joint effort that looks at about 98 percent of the E-
clearances or the clearances that are done in government. When 
I talk to individuals outside of government, they find it 
absolutely incredible.
    One of the reasons we can't generate the excitement about 
the E-government initiatives that we have is because most 
people assume that we do them already. This is certainly one 
area in E-clearance where moving and taking advantage of the 
technology that exists in our world today will move us quantum 
leaps in terms of speed, in terms of efficiencies, in terms of 
eliminating redundancies so that I expect that as we go more 
on-line and as we, you know, we improve our process that you 
will see quantum leaps ahead in terms of our speed, accuracy 
and efficiency.
    Mr. Putnam. Do you still believe that the savings targets 
that you gave in your testimony are on target?
    Ms. James. I do. I do. And you know some people find the 
numbers absolutely staggering and don't believe they pass the 
straight face test. But all it takes is an understanding of how 
our government operates to understand how we could be in this 
situation.
    You have agencies that each have their own systems, their 
own legacy systems. You have redundancies that are out there; 
and, as a result of that, most of the efficiencies will be 
achieved by economies of scale and as we eliminate 
redundancies. It requires a great deal of commitment and 
leadership to get us where we need to be because everybody has 
their own, and everybody wants to keep it. And, quite frankly, 
that does not serve the citizen well and it does not serve the 
employee well, when we could be moving toward combining these 
systems, realizing the efficiencies and providing better 
services at the same time.
    But I have to tell you that's a tough one. People are very, 
very territorial. But I think we'll get there, and I think 
we'll get there because leadership comes from the top. The 
President has given his direction. The President's Management 
Council is committed to this, and we are working in a 
collaborative way, so I think you will see those kinds of 
savings.
    Mr. Putnam. It would be nice if OMB were here to hear your 
discussions about the cultural challenges and the turf battle, 
because, hopefully, they can carry a stick big enough to alter 
some of those attitudes. But do you have an estimate on what it 
will cost us to save that much money?
    Ms. James. I don't have a combined total for all of the E-
gov initiatives. Maybe our technical matters experts do, and 
they can give that to you a little later.
    Mr. Putnam. OK. On the issue of turf and the cooperation, 
you said it better than anyone about the need for the 
cooperation and coordination amongst the agencies and the need 
to give up some. Do you sense that there's a climate out there 
of buying in to the management agenda or what level of 
resistance do you still face?
    Ms. James. I'll tell you, there was a great deal of 
resistance initially, and then I think they realized in several 
communities--and maybe I'll talk a little bit about each of 
those--that the President was quite serious and that this is 
what he expected from his team. When we're looking at 
fundamentally changing how we do government and getting results 
for the American people, we must move in this direction. It 
does not pass the straight face test that our government is 
still operating in outdated, antiquated, outmoded, redundant 
systems.
    But change does not come easily or quickly. As I said, 
there are those territorial issues where people feel 
comfortable. A lot of times people feel more comfortable with 
something that's broken and doesn't work, just because it's 
theirs, and so change is very difficult.
    In talking about this sometimes I use the analogy that if 
you can think about a family getting a new computer at 
Christmas, there are those who gravitate toward the new 
technology easily and quickly. There's always a couple of 
family members that think the old one works better and I want 
to keep it even though it's antiquated, outdated and outmoded. 
But with leadership and training and communication you can 
eventually change that culture.
    You also have an entire vendor community out there that, in 
fact, you know, is wed to the old system because they see that 
as more opportunity for them. I am trying to encourage them to 
look at the new vision for E-gov. There are many opportunities 
out there for them, but in the changing environment they must 
change their business plans. There are lots of opportunities, 
and we invite them to be our partners.
    Mr. Putnam. Very good. Do you see the human capital effort 
and the E-gov efforts on the personnel side as being 
complementary initiatives?
    Ms. James. You know, I do. That's a very good and very 
perceptive question for the reason that, you know, when you 
look at the President's management agenda, all of those 
initiatives sort of are like a glove and they fit together very 
well.
    One of the ways I like to talk about our E-gov initiatives 
is to look at it from the time someone is hired into the 
Federal Government until someone retires. When you look at the 
whole range of challenges that are before us on human capital 
right now, the E-gov initiatives fit very nicely with helping 
us to achieve our human capital goals.
    There's got to be a better way to hire people into the 
Federal Government. Our systems are broken, and Recruitment 
One-Stop will help us fix that.
    There's got to be a better way to get people cleared and 
into our government more quickly, when people are waiting 
months and in some cases years for a clearance; and you will 
see that our initiatives there will help that.
    When people are moving in between jobs in the Federal 
Government, it is--it does not pass the straight face test that 
there were still paper folders that had to follow our employees 
around; and so, of course, our HRM project will help that.
    When we are trying to do forecasting and succession 
planning, when we are looking ahead to see where the skill gaps 
are, you can see that having efficient E-gov projects that work 
to help us achieve those goals are absolutely essential. So our 
E-gov projects and E-gov initiatives actually fit quite well, 
like a hand in glove, with helping us to achieve our human 
capital strategies. As I said, sometimes it's a little 
difficult to get excited about what we're doing, because a lot 
of people assumed that we were there already and we are in fact 
not.
    Mr. Putnam. Can you use this E-gov initiative to identify 
and locate the types of skill sets that the government is 
lacking just by virtue of the medium that you're using to 
attract them?
    Ms. James. Absolutely. I think that's going to be very 
helpful to agencies as they are going about trying to fill very 
particular job openings and job categories. And with the--and, 
you know, I think that later today you will have the 
opportunity to hear from Norman, from some of the other folks 
who are working on this specifically. But when you see some of 
the tools that are on that Web site now, that helps both the 
applicant and helps the agency to identify talent.
    One of the things that's most exciting for us is that a job 
applicant coming to the Federal Government used to have to fill 
out not one resume but they would have to do multiple resumes 
and applications in order to apply for Federal jobs. Now they 
can do one and that will suffice for many different 
opportunities. So we'll see many efficiencies as a result of 
that.
    Mr. Putnam. Very good. What have we not discussed that you 
would really like to elaborate on for the subcommittee?
    Ms. James. Well, I think, Mr. Chairman, that you--there's a 
lot to be talked about, but, quite frankly, that is at the--you 
know, the more technical level in terms of what each of these 
initiatives do, so I think you have a very exciting panel in 
front of you for this afternoon. I would just say yet again 
that you cannot overemphasize the importance of this particular 
initiative for bringing value to the taxpayer as well as 
bringing efficiency to those individuals that want to come to 
work for the Federal Government and for those employees that 
are already there.
    You will hear from GAO in a few minutes; and, quite 
frankly, you know, we owe a debt of thanks to David Walker and 
to GAO for raising human capital as a high-risk factor. People 
who understand the current status of the Federal work force 
understand that for us to recruit and retain the work force 
that this country desires we must move our systems into, you 
know, the--where technology is today into the 21st century. 
Quite frankly, it does not pass the straight face test that 
this has not been done already.
    So there are a lot of exciting things that are going on, 
and I would encourage any members of your staff or other 
committee members if they would like to see hands-on 
demonstrations of these particular initiatives it would really 
enrich, I think, the dialog that's going on right now.
    I would also like to thank you, Mr. Chairman, for holding 
this hearing, because, quite frankly, it's difficult for us to 
get the word out about the initiatives and about the new tools 
that are available. We try in every way we know how in terms of 
press conferences and releases and going to conferences, but 
one of the best ways to get a message out is when you call us 
up here and have us testify.
    Mr. Putnam. Well, thank you very much, Director James. We 
certainly appreciate your enthusiasm and your leadership on 
this issue, and we look forward to hearing the testimony of the 
second panel.
    So, with that, the committee will stand in recess and 
dismiss the first panel and arrange the second.
    Ms. James. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Putnam. The subcommittee will reconvene. I would like 
to welcome all of our witnesses on the second panel.
    We will be handling our second panel a little bit 
differently than normal. Following comments, the formal 
testimony from GAO and additional remarks from the Office of 
Personnel Management, we have asked the program managers from 
each of the five initiatives that we're discussing today to 
join us for the question and answer period. So we have seated 
all seven of those participating in our second panel at the 
table to eliminate the disruption when we go to questions of 
the second panel.
    We want to welcome all of you here. As is always the case, 
we will place your entire statements in the record; and we ask 
that for those of you who are testifying to limit your remarks 
to 5 minutes.
    We may have to share some of the microphones. We'll be very 
flexible about that. Take your time.
    With that, I would ask all of you, even those who are only 
answering questions and not giving formal testimony, to please 
rise and accept the customary oath. Please rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Putnam. Note for the record that half the room 
responded in the affirmative.
    I'd like to introduce our first witness for the second 
panel, Linda Koontz. Linda Koontz is Director for Information 
Management Issues at the U.S. General Accounting Office. Ms. 
Koontz is responsible for issues concerning the collection, use 
and dissemination of government information in an era of 
rapidly changing technology. Recently, she has been heavily 
involved in directing studies concerning E-government, privacy, 
electronic records management and government-wide information 
dissemination issues.
    Welcome to the subcommittee. You're a frequent flyer here 
at the subcommittee. We're always delighted to have you, and 
you're recognized for your opening statement.

     STATEMENTS OF LINDA D. KOONTZ, DIRECTOR, INFORMATION 
  MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE; NORMAN ENGER, E-
 GOVERNMENT PROJECT DIRECTOR, OFFICE OF PERSONNEL MANAGEMENT; 
  PLUS ADDITIONAL WITNESSES FOR QUESTIONS SEGMENT: RHONDA K. 
  DIAZ, PROGRAM MANAGER, ENTERPRISE HR INTEGRATION; JANET M. 
   DUBBERT, PROGRAM MANAGER, E-PAYROLL; MIKE A. FITZGERALD, 
    PROGRAM MANAGER, E-TRAINING; CLAIRE M. GIBBONS, PROGRAM 
 MANAGER, RECRUITMENT ONE-STOP; AND MARK WHITE, ACTING PROGRAM 
                      MANAGER, E-CLEARANCE

    Ms. Koontz. Thank you, Mr. Chairman. I appreciate the 
opportunity to participate in the subcommittee hearing on OPM's 
E-government initiatives.
    As you know, these initiatives are intended to serve as a 
complete set of electronic support tools for the Federal 
Government's human capital functions including recruitment, 
security clearances, personnel records, training and payroll.
    OPM's vision is for these initiatives to streamline and 
improve the process for moving employees through the entire 
life cycle of their employment with the Federal Government. OPM 
has made progress in making this vision a reality. For example, 
it has implemented enhancements to its USAJOBS Web site under 
Recruitment One-Stop, automated the form supporting the 
clearance process under E-clearance and established the Gov On-
line Learning Center under E-training. However, OPM faces a 
number of challenges as it continues to implement these 
initiatives.
    First, program managers for many of the OMB-sponsored 
initiatives have been under pressure both from OMB and within 
agencies to achieve results quickly. In order to meet the 
demand for quick results, significant alterations have been 
made to the acquisition plans for several initiatives. For 
example, in OPM's recent decision to continue with its awarded 
contract for Recruitment One-Stop despite a successful bid 
protest by Simplicity Corp., agency officials perceived the 
need to implement an E-government initiative as quickly as 
possible to be one factor outweighing the concerns raised by 
GAO. While it is clearly important to adhere to agreed-upon 
schedules and milestones, it is also important to follow 
established contracting procedures which are intended to ensure 
fair competition and result in the best technical solutions.
    Second, each of OPM's five initiatives aims to ultimately 
create a single system or Web-based service to support a 
specific human capital function. In each case, agency-unique 
systems and processes must either be replaced or integrated 
into the planned single system. Consequently, managing the 
migration from agency-specific systems to consolidated systems 
will be a challenge. It will be crucial for agencies to 
implement effective change management and communication 
strategies and reach agreement on key standards.
    Third, OPM will be challenged in estimating and measuring 
the $2.6 billion in cost savings that OPM believes will be 
derived from these initiatives. For example, for the 
Recruitment One-Stop, project officials estimate that 
implementation will reduce the average cost of hiring a new 
Federal employee in fiscal year 2005 by $112, or about 4 
percent. With about 150,000 new hires each year, the total 
savings to 2012 would amount to about $168 million, 
significantly less than the total cost savings of $365 million 
that OPM estimates.
    According to OPM officials, the additional savings would be 
gained through other factors contributing to future 
efficiencies. However, these other factors have not yet been 
fully defined, and performance measures to capture these 
savings have not been established.
    Mr. Chairman, OPM has made progress in moving forward in 
implementing its five E-government initiatives which, if fully 
implemented, could have significant benefits by providing more 
streamlined and seamless Federal personnel processes and by 
saving taxpayers millions through eliminating redundant payroll 
and other systems. However, OPM continues to face challenges in 
implementing these initiatives. Unless these challenges are 
successfully addressed, OPM risks not fully realizing the 
potential of its comprehensive effort to improve human capital 
functions across government.
    That concludes my statement. I'd be happy to answer 
questions at the appropriate time.
    Mr. Putnam. Thank you very much.
    [The prepared statement of Ms. Koontz follows:]

    [GRAPHIC] [TIFF OMITTED] T3035.012
    
    [GRAPHIC] [TIFF OMITTED] T3035.013
    
    [GRAPHIC] [TIFF OMITTED] T3035.014
    
    [GRAPHIC] [TIFF OMITTED] T3035.015
    
    [GRAPHIC] [TIFF OMITTED] T3035.016
    
    [GRAPHIC] [TIFF OMITTED] T3035.017
    
    [GRAPHIC] [TIFF OMITTED] T3035.018
    
    [GRAPHIC] [TIFF OMITTED] T3035.019
    
    [GRAPHIC] [TIFF OMITTED] T3035.020
    
    [GRAPHIC] [TIFF OMITTED] T3035.021
    
    [GRAPHIC] [TIFF OMITTED] T3035.022
    
    [GRAPHIC] [TIFF OMITTED] T3035.023
    
    [GRAPHIC] [TIFF OMITTED] T3035.024
    
    [GRAPHIC] [TIFF OMITTED] T3035.025
    
    [GRAPHIC] [TIFF OMITTED] T3035.026
    
    [GRAPHIC] [TIFF OMITTED] T3035.027
    
    [GRAPHIC] [TIFF OMITTED] T3035.028
    
    [GRAPHIC] [TIFF OMITTED] T3035.029
    
    [GRAPHIC] [TIFF OMITTED] T3035.030
    
    [GRAPHIC] [TIFF OMITTED] T3035.031
    
    [GRAPHIC] [TIFF OMITTED] T3035.032
    
    [GRAPHIC] [TIFF OMITTED] T3035.033
    
    [GRAPHIC] [TIFF OMITTED] T3035.034
    
    [GRAPHIC] [TIFF OMITTED] T3035.035
    
    [GRAPHIC] [TIFF OMITTED] T3035.036
    
    [GRAPHIC] [TIFF OMITTED] T3035.037
    
    [GRAPHIC] [TIFF OMITTED] T3035.038
    
    [GRAPHIC] [TIFF OMITTED] T3035.039
    
    [GRAPHIC] [TIFF OMITTED] T3035.040
    
    [GRAPHIC] [TIFF OMITTED] T3035.041
    
    Mr. Putnam. Our next witness is Norman Enger. Norm Enger is 
E-government Program Director for the Office of Personnel 
Management.
    Mr. Enger has extensive experience in the information 
systems industry. Most recently, Mr. Enger was vice president 
of Computer Associates, the world's fourth largest software 
firm, where he was responsible for business strategy and 
managing delivery of professional services to commercial and 
Federal E-business clients. Prior to this, he was president of 
Applied Management Systems, a professional services and systems 
integration firm.
    Mr. Enger, we welcome you to the subcommittee and look 
forward to your testimony.
    Mr. Enger. Thank you, Mr. Chairman. I would like to request 
that my full testimony be entered into the record.
    It has been a privilege and a pleasure to work with OPM 
Director Kay Coles James. Her leadership has let the Office of 
Personnel Management become a leader in E-government. I would 
like to add more detail on what she discussed relative to the 
five OPM E-gov initiatives.
    The vision of OPM is for these initiatives, when combined 
with OPM's retirement systems modernization effort, to provide 
an interlocking, trusted enterprise system based on the 
employee life cycle. These interrelated initiatives streamline 
and improve processes for moving Federal employees through the 
employment life cycle. Collectively, these initiatives help 
make government more citizen centered and results oriented in 
line with the President's management agenda.
    The goal of the Recruitment One-Stop initiative is to 
improve the process of locating and applying for Federal jobs. 
Based upon current site use, 54 million Americans will visit 
this site each year. Over 700,000 new resumes will be created 
on this site each year.
    With the new USAJOBS Web site, job seekers enjoy a new 
user-friendly site with a look and feel that is clean, bright 
and easy to navigate. A new full-text job search is available 
as well as a new streamlined resume builder. Human resources 
specialists benefit from the addition of new tools for managing 
job postings, candidate communications and candidate sourcing. 
Newly formatted job announcements will be attractively 
displayed, easy to read and communicate to applicants the 
benefits and rewards offered by a career in public service. Job 
applicants are offered more intuitive and flexible job 
searching capabilities that allow them to more easily identify 
jobs that best match their interests and skills. They will also 
be able to check the status of their job applications.
    Recruitment One-Stop improves service delivery to job 
seekers and enhances the government's position as a competitor 
for talented personnel.
    Our new E-clearance initiative will not only save time and 
taxpayer money, it is a vital new necessity for a post-
September 11 government committed to vigilance and security. 
Today backgrounds can be checked faster because the forms can 
be completed and submitted faster. There will be a reduced wait 
time for clearances and more reciprocity and sharing of 
clearance information among agencies. All authorized personnel 
will have quicker access to clearance information, and there 
will be a reduction in duplicative investigations. The 
initiative benefits all applicants, employees and contractors 
to the Federal Government.
    When a person completes a standard form 86, part one, data 
after the first time--addresses, employment, education and so 
forth--will all be automatically populated, thereby eliminating 
the need to enter the information, with a time savings of 1 
hour per person. Investigations will be less expensive and can 
be scheduled faster because the SF-56 data will be transmitted 
and processed as an electronic record.
    The second component of the E-clearance initiative is the 
clearance verification system which provides access for all 
agency authorized users to the personal security investigation 
and clearance records of the Federal Government.
    The third component of the E-clearance is to image 
investigative records held by myriad investigative agencies and 
make them available electronically to all authorized Federal 
users.
    Our E-training initiative with its GoLearn.Gov Web site 
offers Web-based training to executives, managers and human 
resources personnel with the information and tools needed to 
more easily identify career paths and competencies, track 
performance in key areas and identify and assess learning 
needs. Over 1 million civilian and military personal use this 
site each year to receive on-line training. There are currently 
100,000 registered users, and 50,000 courses have been 
completed.
    The E-training initiative and its on-line training will 
provide talented, instructional programs based on the needs of 
both the individual and the organization. There are cost 
savings from tuition, cost avoidance compressed learning time 
and travel cost avoidance. The Competency Management Center on 
the site allows human resource specialists and employees to 
more easily plan professional and individual development and 
map into courses and services. Current research in government 
and commercial sectors suggest that employees are more likely 
to stay with organizations that provide training opportunities 
that are aligned with career development.
    Our next initiative, Enterprise Human Resource Integration, 
is the beginning of the end of those tons of paper personnel 
folders. Conducting work force planning analysis on a large 
scale is difficult today because personnel data is stored on 
paper in personnel folders and the subset of that data is 
stored in a jumble of legacy systems of varying levels of 
functionality and integration.
    The goals of EHRI are clear: provide comprehensive 
knowledge, management and work force analysis to enhance 
strategic management of human capital across the executive 
branch. This includes a data repository for knowledge 
management and work force planning. This repository is becoming 
operational on September 30, 2003.
    Next is an able, enhanced and expanded electronic exchange 
of standardized human resources data within and across agencies 
producing tangible benefits and cost savings.
    The E-payroll initiative advances the E-government agenda 
by creating rare efficiencies in Federal payroll processing. We 
are reducing 22 Federal payroll systems to two partnerships 
that provide payroll processing services. The current 22 
systems that pay 1.8 million civilian employees employ a 
variety of paper and electronic processing. Records are not 
easily shared between agencies. We want E-payroll to be a 
simple, easy-to-use, cost-effective, standardized, integrated 
human resource and payroll service to support the mission and 
employees of the Federal Government. The managing part of OPM 
established and led a working group to analyze Federal and 
civilian payroll service delivery from a governmentwide 
perspective in order to identify options for the modernization 
and improvement of payroll systems processes.
    Payroll consolidation will provide Federal employees more 
efficient and effective service. They will have better 
information, consistent net pay, on-line enrollment and 
electronic access to information. Service delivery will be 
improved through standardized systems.
    Mr. Chairman, OPM E-government is using digital 
technologies to transform government operations in order to 
improve effectiveness, efficiency and service delivery. The 
program management office for E-gov at OPM has the vision that 
seeks an order of magnitude improvement in the Federal 
Government's responsiveness and value to the citizen.
    Thank you. I will be happy to answer any questions.
    Mr. Putnam. Thank you very much Mr. Enger. We appreciate 
you being here. We appreciate your testimony.
    [The prepared statement of Mr. Enger follows:]

    [GRAPHIC] [TIFF OMITTED] T3035.042
    
    [GRAPHIC] [TIFF OMITTED] T3035.043
    
    [GRAPHIC] [TIFF OMITTED] T3035.044
    
    [GRAPHIC] [TIFF OMITTED] T3035.045
    
    [GRAPHIC] [TIFF OMITTED] T3035.046
    
    [GRAPHIC] [TIFF OMITTED] T3035.047
    
    [GRAPHIC] [TIFF OMITTED] T3035.048
    
    [GRAPHIC] [TIFF OMITTED] T3035.049
    
    [GRAPHIC] [TIFF OMITTED] T3035.050
    
    Mr. Putnam. We would also like to recognize our five other 
panelists on the second panel. Rhonda Diaz, Program Manager for 
Enterprise HR Integration. Janet Dubbert, Program Manager for 
E-payroll. Mike Fitzgerald, Program Manager for E-training. 
Claire Gibbons, Program Manager for Recruitment One-Stop. And 
Mark White, Acting Program Manager for E-clearance.
    We will now move into the questions; and, again, I want to 
thank all our panelists for being with us.
    The Director of OPM testified that the savings would be in 
the neighborhood of $2.7 billion. GAO refers to the fact that 
those savings may be overstated. Ms. Koontz, would you 
elaborate on that some?
    Ms. Koontz. Based on work that we've done to date, what we 
have seen raises a lot of questions about how the cost savings 
were calculated, and some of the assumptions that were made in 
coming up with those calculations. While I think we understand 
the sort of broad estimates that went into these cost savings, 
we haven't yet seen the details that really allow you to 
replicate the numbers that OPM is coming up with right now, so 
I don't think we have a conclusion yet. But we have a lot of 
questions about whether these are the right cost savings or 
not. We also have further questions about the extent to which 
OPM has measures in place in order to capture these savings as 
the projects are implemented.
    Mr. Putnam. What number do you estimate as being the bottom 
line savings from?
    Ms. Koontz. We haven't done the kind of work in order to be 
able to come up with an independent estimate. I think what we 
are more looking at, like the example I gave in my oral 
statement, OPM tells us that there is a certain dollar savings 
associated with E-recruitment. When we do the math we can't 
come up with the total dollar savings. And they tell us that 
there's other factors in there, but we don't know the details 
surrounding those other factors. So at this point we just 
question how definite those cost savings are and how reliable 
they are.
    Mr. Putnam. Mr. Enger.
    Mr. Enger. We certainly will make an effort to clarify how 
we made the calculation of the cost savings.
    But let me add, if I may, the largest cost savings is in E-
payroll. That's $1.1 billion of the $2.7 billion that we have 
forecast. That $1.1 billion was based upon a much smaller 
number than 22 agencies processing payroll. I believe it was 
14. So in effect, in that case, the $1.1 billion, the cost 
calculation was based upon closing down or consolidating 14 
agencies processing civilian payroll. In reality, we found more 
and more stovepipe payroll system, so the real number is 22. So 
I have every expectation that the E-payroll number which is our 
biggest number, 1.1 billion, will go up and not go down.
    Much of that is simply--as you said earlier, Mr. Chairman, 
it's the stovepiped, separate operations, all the 
infrastructure, the technology, the hardware, the software, the 
licensing and such to process 22 different payroll systems for 
1.8 million civilian employees.
    So, to answer your question, my one example there is I 
think that E-payroll is a low number; and, at the same time, we 
would be more than willing to sit down with GAO and provide 
more detail as to how we have made our cost calculations.
    Mr. Putnam. Any of the other panelists wish to add anything 
to that?
    Are the savings predominantly in the outyears, or can we 
expect to see some in the near term?
    Mr. Enger. Well, the savings, actually--and I'll let Janet 
talk in a moment here. We're already migrating agencies. We're 
consolidating agencies. For example, the Department of Energy, 
just this month, migrated into DFAS, Defense, the DOD 
operation. Right there, you'll see a reduction in DOE's energy 
costs to process payroll.
    Our target is to have the consolidation between now and 
September 30, 2004. So, in that sense, we're talking about 
seeing significant short-term dollar savings. And beyond that 
we have longer-term savings, you know, in terms of as we look 
at a more standardized payroll system for the additional 
savings there.
    Janet, do you want to elaborate upon this?
    Ms. Dubbert. Norm's absolutely right. The latest business 
case estimates 22 agencies in the executive branch doing 
payroll, in fact, that number has even increased. We started 
with identification of 12, went to 14, and then the original 
business case identified 16. We then raced to 22. My count 
today, including the four selected providers, we have 25 
independent executive branch agencies that were performing 
payroll. The immediate savings by the migration activity that 
is to conclude September 30, 2004, which was the OMB target 
date, we were estimating approximately $1.6 billion for O&M, 
operations and maintenance, of the 14 agencies that gave us 
cost estimates. We don't fund costs associated with operations.
    So Norm is absolutely right in the fact that we don't have 
cost information from all the agencies. We are collecting that 
information at the point of migration planning which is well 
under way, and we will be able in a few short months to have 
information operation and maintenance expenses from the total 
of the agencies currently performing payroll.
    But our cost estimates for savings in fact included not 
just O&M, but the elimination of the redundant systems and 
savings for purchase of new technology, and is identified in 
our costing model. In addition to the $1.67 billion for 
operation and maintenance, the migration expenses are estimated 
at $46 million and $350 million for system replacement, and all 
of that has to be taken into consideration with the 
elimination--these are numbers from just 14 agencies, not the 
total of 25 or 21 agencies that ultimately will be affected. We 
believe that our cost savings could, in fact, be greater than 
$1.1 billion.
    So we have a number of agencies migrating by September 30, 
which is the bulk of the dollars associated with our cost 
savings model. So we should recognize the savings starting in 
fiscal year 2005 as a result of those migrations. Long-winded 
for your answer.
    Mr. Putnam. How many agencies are there governmentwide?
    Ms. Dubbert. Executive branch, approximately 116 branch 
agencies, and we are focused on the executive branch. So in the 
executive branch, there were approximately 25 agencies 
performing payroll independently; 4 have been selected to 
continue, we have 3 that have been deferred. Those are within 
the intelligence community.
    We have a task force that we have developed with them and 
have been collaborating with them on a study as to how they're 
going to do their business. We have one agency that has been 
considered exempt, that's the Federal Reserve Board; and we 
have one agency that's currently under consideration and we are 
reviewing their law, and that is the Tennessee Valley 
Authority.
    All others within the executive branch have been slated for 
migration. We only have four left that have not had their 
migration scheduled. They are the Department of Labor, the 
Environmental Protection Agency, the Department of Veterans' 
Affairs and the Railroad Retirement Board. So we have 11 that 
are scheduled and well on their way for migration.
    Mr. Putnam. So the Department of Labor, for example, they 
only have one payroll system?
    Ms. Dubbert. Yes. For themselves.
    Mr. Putnam. For themselves?
    Ms. Dubbert. Yes.
    Mr. Putnam. Is that common, that the departments would have 
all of their agencies on the same payroll system?
    Ms. Dubbert. No.
    Mr. Putnam. We have had testimony that the Navy has dozens.
    Ms. Dubbert. Navy typically sources their military under 
the DIMHRS program. Within DOD, DOD has the the Defense Finance 
and Accounting Service. The DFAS entity is the entity that 
services the civilian population for DOD. The exception to that 
would be for NSA.
    The Department of Treasury until just a few years ago had 
multiple systems; they have since consolidated. And there's one 
left that we are currently migrating and that's part of our 
numbers, and that is the Office of Thrift Supervision.
    Department of Justice, there had been multiple entities 
within their department. The only one left not currently 
serviced by one of the selected four is the FBI, and they are 
well on their way to migration. We just have a snafu in their 
classification of the system.
    Mr. Putnam. What is the deadline by which time all civilian 
agencies will be on the same payroll system?
    Ms. Dubbert. The targeted deadline was September 30, 2004. 
Until we get signed agreements with all the agencies and set 
their schedules in place, we won't have a full answer, but I 
can tell you the 11 that are in fact scheduled and well on 
their way, we do anticipate being able to meet the September 
30, 2004, date for them. The three agencies within the intel 
community that have been deferred, were deferred from the 
September 30 date as well.
    So the four agencies we're still working with, as I said, 
are DOL, EPA, VA and Railroad Retirement Board. If you're 
counting in the numbers, there's one more; and that is, believe 
it or not, the Panama Canal Commission. And we're still 
communicating with them, but they have negotiated with Panama 
for their payroll, so we're not quite sure how that might fit 
into the scheme.
    Mr. Putnam. If the Panama Canal Commission and the TVA are 
your biggest problems, you are doing a yeoman's task. You're 
doing quite good work if that's your biggest problem.
    Who is your biggest problem?
    Ms. Dubbert. I would say there are barriers because some 
agencies, in fact, have different pay title authorities 
independent of the Office of Personnel Management's 
authorities. Also, there are agencies who have in the last 
several years implemented or purchased, and have either 
implemented or are implementing, integrated human resource 
payroll systems. And having to turn off the back half of that 
integrated solution for the better of the whole is what is a 
challenge for two of the four that I previously mentioned.
    One of the other four that I mentioned not yet scheduled, 
certainly has some complexities because they have pay authority 
for medical field under Title 38, and we are still in 
discussions with them. And I want to say for the record that 
the Office of Management and Budget has been with us, working 
with each of these agencies, to get through any of the barriers 
that exist.
    So it's possible we may have four agencies, those that are 
currently not scheduled that we will miss the September 30, 
2004, date on.
    Mr. Putnam. Ms. Koontz, the testimony we seem to always 
have is, it always come back to cultural challenges, management 
challenges. You've heard the status of the e-Payroll across 
these initiatives is adequate oversight and management taking 
place from OMB and OPM to ensure that the proper cooperation is 
taking place between all the agencies to implement these five 
initiatives.
    Ms. Koontz. At this point, we've identified that management 
challenge, particularly of moving from disparate agency-unique 
systems to consolidated systems as being a very big challenge 
for the agencies, OPM, and OMB. It's really important that OPM 
have a good change management strategy in place, and that they 
communicate very well. There is also a place for OMB to make 
sure that duplicate systems, if need be, are not funded as they 
try to move toward consolidation.
    Mr. Putnam. Mr. Enger, what's OPM's strategy for managing 
these initiatives as an integrated set?
    Mr. Enger. Let me say, No. 1, that we have to date every 
milestone that was established in conjunction with OMB. And I 
would say the reason we have been able to make such progress is 
because we have had very, very strong backing from the Director 
of OPM, Kay Coles James. I report to her directly, and we have 
had very strong backing from OMB; and I think with that 
seamless backing across the board we have been able to make 
progress.
    There is something called the Federal Enterprise 
Architecture, which is being developed by OMB, looking at the 
Federal Government as a business and what are the lines of 
business of the Federal Government and where are there 
stovepipe or redundant systems and where can you have a more 
efficient system and better service to the citizen with proper 
economy and metrics that measure your performance.
    We've worked very, very closely with OMB and we have 
actually placed all five of our initiatives, actually including 
the Retirement Systems Modernization effort, within this 
enterprise architecture. And this shows the civilian human 
capital operations, what is done in civilian and human capital 
operations. Where does e-Training fit in there? So within this 
architecture, we're getting the integration that you're asking 
about. It's showing us the data flows, the process flows 
between our initiatives and also beyond our five into the other 
lines of business in the Federal Government.
    So from our point of view, the Federal Enterprise 
Architecture being promoted by OMB has been a very, very 
beneficial tool in architecture for us to integrate our 
initiatives within the human capital structure, but also within 
the larger Federal Government.
    Mr. Putnam. Ms. Diaz, could you discuss the differences 
between the HR initiative and the lines of business 
consolidation announced by Mark Foreman that Mr. Enger referred 
to with respect to each agency's HR system?
    Ms. Diaz. Let me just clarify the question you're asking. 
You're asking to clarify the difference between the new EHRIS 
initiative, which was one of the line-of-business initiatives 
and the EHRI initiative, correct?
    Mr. Putnam. I think.
    Ms. Diaz. And there is a difference. A lot of people get 
confused, one, because of the names; one is EHRIS and one is 
EHRI.
    EHRI is the initiative that I am the project manager for, 
and EHRI is the key service data component for all the OPM e-
Government initiatives. We are going to eliminate the need for 
the paper personnel folder and enable the electronic transfer 
of data across the government from the time the employee comes 
on board until the time they retire. Currently, today--I don't 
know if you've ever seen a personnel folder, but they follow 
people all over and some of them are about that thick. And if 
one gets lost, you have to manually recreate it. And the 
storage costs on those are just astronomical, and we're going 
to eliminate that need.
    What the EHRIS initiative is about is kind of going down 
and looking at the transactional HR systems whereas the EHRI 
system is a data repository. It isn't a transactional system 
that processes the various business rules when you need to hire 
someone. For example, if you are a GS-13, Step 5, your salary 
can only be in this range. Those transactional systems enable 
you to do those types of actions and then feed the data to the 
payroll system.
    What the EHRIS will do is look at the possibility of 
consolidation and elimination of redundant systems, similar to 
what the e-Payroll initiative will do, as well as look at 
standardization across the board of those systems, because as 
we know, we all are in the same business in the Federal 
Government, so there shouldn't be that many differences in 
systems. And that's kind of the difference between the two 
initiatives.
    Mr. Putnam. Comment a bit, though, on the standards issue. 
Have we completed the establishment of a set of data standards 
across all agencies?
    Ms. Diaz. For EHRIS we have developed a data model that 
will be the foundation for the electronic official employee 
record. With that, we've identified the data items that would 
need to be contained in a data--in an official employee record 
as well as associated standards with that.
    As we begin implementation of EHRI, we will also 
continuously update those data standards. Currently today, we 
already have about the first 89 data items that are standard 
across the government. The official employee record will have 
up to about 500 data items that will be standard across the 
government, which will enable us to transfer that electronic 
data from agency to agency as well as onto the retirement 
system.
    Mr. Putnam. So a graduate of one of our Nation's 
universities, with a general business degree, who wants to work 
for the Federal Government, there might be seven different 
agencies that they are qualified for an entry-level type 
position. To apply for each of those seven agencies, how many 
applications would they fill out?
    Ms. Diaz. That would be Claire's question.
    Ms. Gibbons. How many applications an individual might 
file, if they are aware of seven potential vacancies which they 
would meet the basic requirements, likely would be seven 
separate applications. Some of the applications may be filed 
on-line directly with the Federal agency posting the job. Some 
of the applications might be filed manually if the agency in 
question was using manual application processing procedures.
    Mr. Putnam. There are agencies who don't recognize on-line 
applications?
    Ms. Gibbons. That is correct.
    Mr. Putnam. Would they be limited to the intelligence 
community, or is there some other reason why they wouldn't 
recognize that type of an entree into the government?
    Ms. Gibbons. Generally it's a matter of the individual 
business processes within the agency and the decisions that 
they have made regarding how they will do their Federal 
staffing and evaluate candidates. So there are some agencies 
that are using totally manual processes and paper-based 
applications. There are many agencies that have moved to 
automated application procedures.
    But when automation is used for Federal application, the 
current scenario requires that a job seeker would complete a 
basic job application or submit the same kind of standard 
applicant data over and over and over again on multiple 
systems, so a job seeker who was applying to the Department of 
Commerce would supply his or her name, address, work history, 
education, skills, etc., and then also respond potentially to a 
set of questions specific to the vacancy being filled. That job 
seeker applying for a position with the U.S. Geological Survey 
would go through a very similar process of supplying the same 
biographic data to the USGS system, and they might do it each 
and every time they file an application.
    Some systems store basic information, others do not. 
Through the enhancements that we'll be making to USAJOBS and 
creating a single basic job application or basic initial 
resume, job seekers will be able to create their initial 
application once, store it to USAJOBS, and then have that 
information integrated with on-line application processing 
systems operating across government.
    At the same time, while we will allow agencies to continue 
to use manual evaluation procedures if that's what they choose 
to do and that's consistent with their business processes, we 
will establish on-line application for 100 percent of the 
vacancies posted through USAJOBS so agencies, when receiving an 
application transferred to them electronically, may choose to 
print it off and do a manual evaluation as opposed to 
integrating that application with an automated system.
    But we will achieve on-line application for all vacancies 
as well as allowing for alternate procedures if a job applicant 
shouldn't have access to the technology.
    Mr. Putnam. I could understand an alternate procedure for 
an applicant who may not have access to the technology. I'm 
having a hard time understanding why the government agency 
would opt not to accept electronically filed resumes.
    Ms. Gibbons. I believe currently the issue is simply that 
agencies have not made the decision or the investment in the 
automation for the application processing; for the systems that 
would provide for the sophisticated algorithms for determining 
employee qualifications, determining rankings of candidates, 
handling the application management and work flow within the 
organization. Many, many agencies are, I believe, and more will 
be moving toward automation in that process. They're just not 
all there yet. And when they have no automated system in place, 
the kind of fall-back position is to take an application that's 
received through the mail, or possibly fax as the extent of the 
electronics involved.
    Mr. Putnam. How many agencies are we talking about here who 
would not acknowledge or receive an on-line application?
    Ms. Gibbons. We don't have a hard number for the current 
number of agencies that are not using automation in their 
application processing. Most agencies, and most of the large 
agencies and departments, are certainly employing automation in 
their application processing. Yet many of the smaller agencies 
have not gone to automated systems, the volume of their work 
isn't necessarily supportive of the investment.
    Mr. Putnam. So the Panama Canal Commissions are the types 
of agencies we're talking about here? Or are we talking about 
the Farm Service Agency that's in every county in America? We 
spend all this money to build these Web sites, and then are 
begging people to use that because it's going to save us all 
this money; but then we have agencies who say, we won't accept 
it unless it's on blue paper in triplicate with a paper clip in 
the upper left-hand corner.
    Ms. Gibbons. Certainly, as we move forward with the 
recruitment one-stop initiative, we are going to establish 
procedures that will provide for on-line application for all 
job seekers. The job seeker will have the opportunity to create 
that initial application on USAJOBS and have that application 
filed electronically with an agency whether, ultimately, they 
integrate that data into an automated system or choose to do a 
manual review of the application received. So we will achieve 
the on-line application process or on-line application 
submission for the job seeker.
    Agencies in terms of the decision of how they then process 
the full application and manage the work flow within their 
department or agency, that's still mixed. More and more are 
moving toward automation, and that's certainly what we are 
encouraging.
    In terms of the agencies that we're talking about, 
oftentimes it is the very small agencies. It is the National 
Battle Monuments Commission or Pension Benefit Guaranty Corp. 
that haven't gone on to a fully automated solution. In the 
larger departments and agencies, certainly most are using 
automated application processing. Those that haven't adopted it 
yet are in the process of making system evaluations and 
decisions.
    Mr. Putnam. The E-Clearance issue, Mr. White, there've been 
a number of congressional hearings and an awful lot of work 
done on the backup of clearances. Where are we now in the 
number of clearances that are pending and what types of 
improvements have been made in that?
    Mr. White. I don't have the number in terms of how many 
clearances are presently backlogged. I can tell you a little 
bit about how e-Clearance, as an initiative, expedites the 
processing in terms of shortening the latency of providing the 
information on the front end from the applicant via the e-QIP 
process and providing that information to the investigation 
teams that begin an investigation, as well as--another aspect 
of our initiative expedites the verification process of who's 
cleared and who isn't.
    In terms of how many applications or how many 
investigations are presently backlogged, I don't have that 
information.
    Mr. Putnam. Go into some detail of how your initiative is 
going to save us time and money.
    Mr. White. Well, specifically, the clearance verification 
system is a module of e-Clearance that allows for a guard at a 
gate to let someone into a building or to quickly arrange a 
meeting that before had to be stalled a number of hours to 
verify that the right people were in the room and everyone 
could partake in the information rather than having someone 
stand outside the door. That, of course, involves more people 
and provides a latent period for which individuals can be 
briefed at a later date and time, which slows up government 
processes. That, of course, is an intangible.
    In terms of the e-QIP process, the collection of 
information for all employees that undergo an investigation, 
this brings to life a whole functional process of gathering 
information from the applicant rapidly, immediately making that 
information available to those investigation teams, providing a 
portable medium where they can then forward that information to 
the individuals that might be responsible for the adjudication 
process. The portability of this information via this Web 
portal, if you will, negates couriers, courier charges and a 
number of tangible and intangible aspects involved in 
investigations, processing and adjudication.
    Mr. Putnam. As well as the repetitive application process 
when you change jobs.
    Mr. White. Clearly, individuals who have a clearance 
periodically are rereviewed and that information is collected 
again and again the old way. With the new system, that 
information can automatically be propagated in front of them 
and they can handle the changes to the information as they see 
fit.
    Mr. Putnam. Ms. Diaz, is that the type of information that 
would be integrated with your program, as well, so that it is 
portable, it is interoperable, it is compatible?
    Ms. Diaz. Yes. We will receive a limited subset of data 
from the e-Clearance system to allow an employee to be placed 
in a variety of positions. We do not anticipate getting all of 
the data that would be in the e-Clearance system because our 
intent is not to make our system a classified system.
    Generally, when someone transfers from one position to 
another you want to reassign them, you just need a limited set 
of data. So we are going to be receiving that data from the e-
Clearance system, as well as when someone transfers or retires 
from other positions, we will send them a note or send them 
something in the system so that they know they can go back and 
check and make sure the security clearances are either 
terminated or they're transferred, as appropriate.
    Mr. Putnam. You'll send them an e-mail, not a note?
    Ms. Diaz. It's going to be an interface.
    Mr. Enger.
    Mr. Enger. Can I add something here?
    What we have done essentially with e-Clearance is taken a 
paper-based system and made it electronic. For example, one of 
our great achievements I think was the clearance verification 
system where, for the first time, we established at OPM the 
information about all civilian sector clearances in one place, 
and we linked that in January to the DOD system, Joint 
Personnel Adjudication System. So now an investigator can put a 
name in and for the first time ever in American history, it 
will go across the entire civil sector data base and DOD and 
give the background as to, was this person cleared before, who 
granted the clearance, where is the investigation information 
and so on.
    So for the first time we've established a system that gives 
the investigator or the proper official access to all of the 
active clearances in the Federal sector. That's one big step.
    The e-QIP that Mark White mentioned, we moved that 
cumbersome form that people hate from paper to electronics. 
When that form is filled out, it will go electronically to the 
agency and then it will go electronically to the investigative 
agency that does the background information. Right there you 
have saved at least 7 days per clearance process. You are 
speeding up the whole effort to do a background investigation 
and a clearance.
    Where there is still a difficulty, because you mentioned 
the backlog issue, we can be as electronic as we want, which is 
a great step forward, but one of the barriers to the clearance 
process right now is the agency adjudication. When the 
investigator does the investigation and returns that report to 
the agency, somebody in the agency has to adjudicate, has to 
decide whether or not to grant that person a clearance.
    At that point there is a place of bottleneck, because it 
requires an individual, a person, to sit down and look at that 
report and decide yes or no, this person will or will not get a 
clearance. And there's a shortage of adjudicators, and that 
becomes a choke point and that becomes a point whereby you 
buildup a backlog in terms of clearance processing. And I think 
that's something of note, that they are trying to improve the 
process. You have a manual step in there that really is beyond 
our control at this point in time.
    Mr. Putnam. Fair point.
    Ms. Gibbons, one of the criticisms we hear from people who 
apply for jobs in the Federal Government is a general lack of 
feedback. They're not told if the resume was considered, 
rejected, or even if the position was filled.
    Does the new initiative deal with that criticism?
    Ms. Gibbons. It certainly does. The new initiative does 
address that issue very, very specifically.
    The enhancements we're making to USAJOBS will provide for 
job seekers to receive real-time status feedback regarding 
where they stand in the employment consideration process. 
Again, through integration with automated application 
processing systems that are running in Federal agencies or key 
entry into the USAJOBS system, agencies will feed to a 
consolidated applicant profile segment on USAJOBS status 
tracking information that will provide job seekers with 
information on key milestones in the employment consideration 
process, such as initial receipt of their application, initial 
determination of qualifications, whether or not a candidate has 
been referred to a hiring official for interview and further 
consideration; and then the subsequent disposition of the 
hiring action, i.e., someone has been selected or the position 
has not been filled for whatever reason.
    Mr. Putnam. There has also been a criticism that the site 
is biased toward recent graduates, which is the example I used 
earlier, or outside hires, with not enough consideration given 
to current employees looking for internal promotional 
opportunities.
    Would you like to address that concern as well?
    Ms. Gibbons. The USA Jobs data base and the information 
disseminated by OPM governmentwide on vacancies very clearly 
covers external opportunities or those jobs that are open to 
new job seekers, persons not in the Federal Government. But 
also we have an equal responsibility for disseminating the 
internal vacancy information for transfer or promotional 
opportunities for Federal employees, and we've certainly tried 
to balance the needs of both the non-Federal job seeker as well 
as those within the work force.
    We have heard some of the feedback from those in the 
Federal work force on our redesign effort within USAJOBS, that 
they think that the system is not as user friendly to their 
interests. Specifically, we have feedback from current Federal 
employees who would like to be able to search more readily on 
grade or salary parameters of jobs, as well as groupings of 
jobs vice individual job series or keyword searching.
    We do have an enhancement plan that we have developed and 
will be implementing over the next several weeks that I think 
will address some of those concerns by providing more readily 
obvious salary searching to current Federal employees, as well 
as consolidation of jobs, some streamlining and geographic 
searching, etc.
    We have received a great deal of feedback since we launched 
on the new platform. We are always striving to make sure that 
the system equally meets the needs of the non-Federal job 
seeker, as well as those within the current work force, and 
seeking to implement changes based on the feedback received.
    Mr. Putnam. A number of these interfaces that almost all of 
you have referred to, I would assume, rely upon the 
interoperability of each agency's current system. And so my 
question would be, do they have the interoperable capacity 
right now in each of these agencies to do all of the things 
that OPM wants them to be able to do in each of these 
initiative areas, or are they going to have to upgrade their 
own legacy systems or stovepipes to be able to have this 
seamless interface?
    Ms. Gibbons. Within my particular initiative, within the 
USAJOBS system and the interfaces that we are establishing with 
Federal agencies, we are building on XML data exchange 
standards that will provide for the interoperability; and we 
are not aware of any significant barriers to agencies within 
the systems that they either run on their own or the vendor-
supplied systems that they utilize, that they will not be able 
to successfully create the interchange.
    Ms. Diaz. We're also using XML, and for those agencies that 
may not be able to at this point handle the XML, we are working 
with them to accept basically a flat file exchange of data as 
an interim step.
    Mr. Putnam. Mr. Enger, when we created the Department of 
Homeland Security, there was a great deal of concern about the 
merging of different salary structures, different schedules, 
different payroll systems, different training systems, a lot of 
the same things we're here to talk about today.
    How far along are we in that effort, as it reflects a bit 
of a microcosm for what you're trying to do governmentwide?
    Mr. Enger. Well, there is a DHS, Homeland Security, HR 
committee which is approximately 7 or 8 months old, which is 
comprised of the major entities in DHS--INS, Customs, Coast 
Guard, etc.--and that committee meets on a weekly basis, 
typically. I also am on that committee to represent the OPM e-
Gov initiatives.
    DHS is heavily engaged, for example, in e-Payroll. DHS has 
worked very closely with my project manager here and, in 
effect, they will be processing payroll for DHS in accordance 
with the goal and vision of e-Payroll.
    Separately--separately, I mentioned earlier in my testimony 
that we're going to be bringing up on September 30, this month, 
the EHRI repository. They have been heavily involved with us on 
that; and they're looking forward to having access to 
information about DHS personnel that will be available come 
October 1 of this year to help them do work force analysis, 
planning, looking at the skills they have and other types of 
demographic information.
    They're also dealing with the e-Training initiative. Mike 
Fitzgerald has been dealing with DHS on e-Training. To the best 
of my knowledge--and also going beyond that, I mentioned 
earlier the Federal Enterprise Architecture, they're heavily 
involved with OPM, dealing with and looking at what is the 
architecture that's being built and how it should be built 
relative to human capital.
    From my point of view, we have had an extremely close and 
very beneficial relationship with DHS that's ongoing. Of all 
the agencies, I would say that DHS has shown really strong 
commitment to e-Government and they want to use all the 
benefits that are possible relative to what is being done by e-
Government.
    Mr. Putnam. In panel one's testimony, Director James 
referred to some outstanding numbers on Web site traffic and 
interest generated by these new sites, particularly on USAJOBS. 
Does that mean we're filling positions more quickly and finding 
qualified applicants in a shorter time than we have in the 
past?
    Ms. Gibbons. We certainly are providing improved tools that 
will help us to speed up the time to hire through increased 
awareness of Federal job opportunities and more diverse 
candidates coming to USAJOBS, including candidates with 
different skill sets, and then eventually improved application 
procedures. Certainly we do believe that we will decrease the 
time to hire. It's not something that we are achieving today 
through USAJOBS.
    Another new functionality that we have within USAJOBS that 
will also be a contributor to decreases in time to hire is the 
tool available on the system that will provide for candidate 
data mining for those job seekers that consent to make their 
application, their resume, available for Federal recruiters and 
managers to see. Agencies can take advantage of the resume data 
base as a sourcing tool to identify candidates that can then be 
invited to participate in the employment consideration process, 
potentially saving agencies weeks that they might have spent in 
placing advertisements or attending other kind of recruitment 
or outreach events.
    So, yes, we believe that time to hire will be decreased as 
a result of the services we are offering.
    Mr. Putnam. So someone who enters the site with the intent 
of applying for a job with the Department of Homeland Security, 
if they consent to have their information shared, they might 
receive notification at some period in the future later saying, 
your skill set makes uniquely qualified for a job with a 
totally different department, who had mined that person's 
information for a particular vacancy; is that what you're 
saying?
    Ms. Gibbons. That's correct. When job seekers come into 
USAJOBS, they have the opportunity to conduct job searches 
solely. They can come into the system and use the job search 
functionality to identify vacancies and choose to create a 
profile so they can be notified by e-mail of jobs that match 
their skills and interests.
    Job seekers can create and store a resume within a data 
base and in fact, they can store up to five versions of a 
resume so they can have resumes customized to particular job 
types that might match a particular skill set that the 
individual has.
    When a job seeker creates a resume and stores it within 
USAJOBS, the job seeker can have that resume remain in the 
system available only for his or her use to actively apply 
against a vacancy that they've located within the data base, or 
job seekers may also choose to make their resume searchable. 
When a resume is made searchable, a Federal agency can use 
mining tools and search on degrees, locations, particular skill 
sets via keyword searching, etc.; and then upon identifying 
candidates that appear to be solid matches for jobs to be 
filled, the agency would then invite the candidate to apply for 
an active vacancy.
    So a job seeker may very well receive an e-mail or a 
telephone call saying, We've got a particular job open; you 
appear to possess the requisite qualifications, and we would 
like you to consider going through the application process.
    Mr. Putnam. Will you be able to document whether you're 
improving the diversity of applicants through the Web site and 
whether you're reaching certain target groups, either by skill 
set or by education or other factors that previously had not 
been reached or had not been reached at the same levels that 
this new portal offers you that opportunity for?
    Ms. Gibbons. Within USAJOBS and the applications that we 
collect, we do not collect race and national origin data on 
candidates. Federal agencies are responsible for reporting out 
individually on their hires and on the diversity of the hires 
within the organization. So we would not be able to draw a 
direct correlation between a change in diversity of the Federal 
work force and necessarily what we're doing within the USAJOBS 
system.
    It is certainly something that, as a government, we have 
considered and we've looked at. Do we have opportunities to be 
able to potentially make the data collection for this kind of 
information easier so that we can, in fact, have then the 
reporting tools that will allow us to measure our success?
    Mr. Putnam. So you have considered that, but that is not 
part of the data collected from USAJOBS site?
    Ms. Gibbons. Currently it is not.
    Mr. Putnam. Mr. Fitzgerald, could you elaborate, please, on 
how the E-Training system effectively brings a common training 
approach to agencies that almost certainly need individual 
customized training needs. Explain, if you would, how it allows 
individual agencies to set their own training priorities versus 
the areas of training that your initiative offers.
    Mr. Fitzgerald. Agencies still--it really comes down to 
truly where they post the content they create. Agencies have 
all the discretion to create, using vendors of their choice, 
custom content that meets their mission-critical types of 
competency and skill development needs. All we're doing is 
simply hosting it. We do have a contract vehicle arrangement 
within OPM, our Training Management Assistance office. So if 
agencies come to us and say, you know, Mike, we want to use 
OPM's contractors to do custom courseware development, we 
simply direct them to TMA.
    Our initiative, the GoLearn initiative, is simply to host 
it. Really for agencies other than their commercially off-the-
shelf courseware that's out there already. They have all the 
discretion to create custom content. Many of our back-end 
capabilities provide them, authoring tools so they can create 
on-the-fly custom content to meet their needs.
    So that's something that's been, I think--in the 
communication across agencies, it's been miscommunicated or 
just misunderstood that, yeah, they can really in the 
proverbial, ``have their cake and eat it too.'' It just comes 
down to hosting it.
    Mr. Putnam. What level of participation do you have in this 
program? How many agencies have utilized e-Training?
    Mr. Fitzgerald. We have 31 agencies that are hosted on a 
common platform. We also have 10 more entities of agencies, 
which may be subgroups of an entire agency, that are on the 
GoLearn platform. We have approximately 27 agencies scheduled 
for migration in fiscal year 2004, which is aggressive because 
many of them are enterprise, for example, the Department of 
Veterans' Affairs. So you're talking about many components 
migrating to a common solution.
    And then in fiscal year 2005 there are 13 additional 
agencies. If you use Ms. Dubbert's numbers, then we are 
approximately--over two-thirds of agencies beyond will be on a 
common e-Learning platform at that point.
    Mr. Putnam. In the past, a lot of this has been handled by 
the Department of Transportation; is that correct?
    Mr. Fitzgerald. We use their contracting vehicle, STATUS 
contracting vehicle. But they did have--one of the things that 
kind of goes under the radar screen in e-Government is, the 
economy is a know-how. They have staff that were technical 
folks that had a great deal of experience in the learning 
industry, understanding the technical side. We at OPM 
understood many of these strategic human capital development 
needs, and it was a relationship that really worked well 
because we took their technical expertise in e-Learning and--
using an existing contract vehicle that was created through a 
full and open competition, and we leveraged that to really move 
quickly to implement this initiative.
    Mr. Putnam. What are your anticipated savings from E-
Training?
    Mr. Fitzgerald. $784 million over the 10-year life cycle.
    Mr. Putnam. It's real money, even in Washington.
    Ms. Gibbons, I've been thinking about your Web site, and 
when I go to Gov Benefits, I type in a range of information 
about myself and I get back everything in the country that I 
might conceivably qualify for.
    Is that how USAJOBS would work?
    Ms. Gibbons. USAJOBS allows job seekers to go in and to 
enter information regarding the job search parameters that he 
or she is interested in. So job seekers can go in and enter 
keywords. If a person is in the environmental area, they might 
enter ``groundwater conservation.'' A person can enter a 
geographic area where they're seeking employment or, a salary 
parameter that would match the kind of job they want, and then 
the individual would receive a listing of the active vacancies 
in the data base that match the search parameters.
    Mr. Putnam. How much of this is on-line now?
    I apologize, I probably should have gone on-line before we 
had this hearing. But how much of this is on-line now if I were 
to go fire it up after this hearing?
    Ms. Gibbons. What I just described to you, it is fully 
functional right now. The Web site is usajobs.opm.gov.
    We have an active jobs data base that ranges from a high of 
15,800, -900 to slightly over 16,000 jobs on any given day. The 
jobs are updated throughout the day, so our data base numbers 
change continuously.
    Job seekers can go in, run job searching, create resumes, 
utilize the e-mail search agent notification process. Federal 
agencies can utilize the system for the posting of their 
vacancies and for the resume mining.
    Our future enhancements include the ``Create Once-Use 
Many'' initial application process that will be integrated with 
Federal agency applicant processing systems, as well as the 
complete movement of the status tracking information. And we 
will be phasing in agencies to utilize those sophisticated 
functionalities beginning this fall and going into mid-summer 
of next year.
    Mr. Putnam. Let me ask GAO, Ms. Koontz, did you analyze how 
effectively--on all of our e-Gov initiatives, how effectively 
is the Federal Government getting the word out about their 
existence?
    Ms. Koontz. That isn't something specifically we have 
looked at yet. You're talking about the existence of these 
particular e-Government initiatives?
    Mr. Putnam. Sure.
    Ms. Koontz. That's not something we've looked at yet.
    Mr. Putnam. Is there any marketing done, Mr. Enger?
    Mr. Enger. No. 1, whenever we have a milestone--for 
example, this month we have the repository--we have a media 
event. We invite the press; we send out letters to the agency 
heads to let them know about this. That's happened from the 
very beginning. We try to spread the word that something's 
happening with e-Government.
    Second, we make presentations to the Quad Council and other 
parts of the Federal Government to tell them what we are doing 
and how it is benefiting them. Each of the managers here has a 
working group of partner agencies that meets on a periodic 
basis, and they spread the word about what they're doing, what 
the plans are. They get feedback. I personally have gone out 
and met with the HR directors, explaining what we're doing, 
asking them to discuss this with me and asking for their 
feedback.
    So we at OPM have had very much of an outreach process 
whereby we have reached out and tried very hard to spread the 
word as to what e-Gov is all about and why it benefits all the 
agencies.
    The word that Mark Foreman used is ``transformational.'' 
What he perceived is, we are not doing a Band-Aid change to e-
Government. We want to transform the way government operates in 
a positive, beneficial way. And that has been the motive and 
the driving force as far as I'm concerned. All of these 
initiatives have transformed the recruitment process, e-
Training, the clearance process. They really are changing how 
the government operates to make it a better and more efficient 
and more responsive government.
    Mr. Putnam. Very exciting, and that's a perfect segue, and 
I would like to ask each of our five program managers to 
comment on whatever issue relative to your initiative that we 
have not asked you about that you think is important to go into 
the record.
    What have we not asked you that you think is important to 
share with the subcommittee? This is your last shot.
    Ms. Diaz. I just think it's important to know that the 
Enterprise HR integration project is the key data service 
component for all the e-Gov initiatives at OPM, as well as the 
interlocking enabler to be able to transfer data from 
agencies--from the HR systems to the payroll systems, from e-
Training to retirement to e-Clearance. And it's really an 
integral part of all the initiatives.
    And I just think that--in the long term that it's going to 
enable human capital management. It's going to enable us to do 
things that we haven't been able to do in the past, even--for 
example, our oversight agencies are going to have data 
available to them for work force analysis, planning for their 
studies and reports that they currently don't have today. And 
it's going to be available on a more frequent basis than what 
they can get data available now today.
    We get data quarterly from agencies. Tomorrow with EHRI, 
we'll get data on a biweekly basis. So the data will be good 
data so we can make good business decisions. That's it.
    Mr. Putnam. Ms. Dubbert.
    Ms. Dubbert. Thank you for the opportunity. I think first 
and foremost, I just want to make a statement that this is not 
a department or an agency initiative. It is a governmentwide 
initiative, and the barriers that we have talked about, whether 
it be, I want to keep it myself, cultural or just because--it 
is all just resistance to change.
    We need to educate everyone within the Federal Government 
that it is a Federal Government activity, and the Federal 
Government is one. And that's what the taxpayers and the 
citizens look at us as, as one. They don't look at us as the 
Department of Transportation or the Department of Treasury; 
they simply say, the Federal Government.
    So what we're doing, in fact, is trying to not just change 
the way we do our business, but set data standards in an 
architecture that will be common for the Federal Government as 
a whole. That is a significant challenge in and of itself.
    So each of the initiatives, although it may sound as if we 
are stovepiped ourselves, we are not. We internally are working 
through the enterprise architecture activity that OMB has 
established for the government at large and looking at it 
internally how, in fact, the human resource or human capital 
enterprise architecture needs to be established, because we're 
connected from the applicant to the training to the repository 
to paying individuals.
    So our challenge, going forward, is reminding individuals 
within agencies, we are doing this on behalf of the Federal 
Government and we need to set the data standards so we have 
more common information and it's retained, stored and managed 
the same way. After September 11, I think it's evident that we 
need to readily access information, and that is the gist of 
what we're attempting to do: set the standards, set the 
architecture and the systems so we can readily access and 
provide information.
    Ms. Gibbons. Thank you very much for the opportunity to 
speak.
    The Federal Government has enormous human capital 
challenges before us, and one of the areas where we face a 
significant challenge is certainly recruitment. I think we're 
all aware that the Federal Government could face unprecedented 
numbers of retirements over the next 5 to 10 years, with some 
estimates saying that nearly 50 percent of the work force will 
be retirement eligible during that period.
    Director James's commitments to meeting those human capital 
challenges and to fixing the Federal hiring process are clear, 
and we think Recruitment One-Stop and the enhancements we are 
making to USAJOBS are certainly key toward achieving those 
goals and truly making the Federal Government an employer of 
choice.
    I think that's really the key driving factor behind what 
we're doing, to be sure that the Federal Government can compete 
effectively for top talent in the marketplace. And by making 
significant improvements, by transforming USAJOBS, by 
transforming the way the Federal Government conducts its on-
line recruitment and making those changes in a job seeker-
focused manner, as a Federal Government we are also serving 
ourselves and providing ourselves with the services--laying the 
foundation for the government--to be able to meet those 
significant recruitment challenges going forward.
    Mr. Fitzgerald. I appreciate the opportunity to say a few 
words, if you give me the liberty to say two points.
    One of the things that I think is important about the e-
Training initiative is that the old paradigm--there were 
actually a couple of paradigms, one relating to training in 
general and one relating to e-Learning; the old paradigm was, 
you're either working or learning in government. You weren't 
doing both. And what we are doing by expediting these tools to 
the desktop is providing an opportunity to have on-demand 
solutions to common problems, desktop problems, EXCEL 
spreadsheets, that people would leapfrog from cubicle to 
cubicle, asking people to get answers.
    What we're doing is actually blending your working and 
learning, which is really--I believe is--we are going to see 
much more of a magnitude of improvement and efficiency in 
training dollars being used that way.
    Second, the old paradigm of e-Learning is, if I just paid 
enough money and got enough content, everybody would flock to 
it. And the current state of affairs is typically, the industry 
reports about a 20 percent or less utilization rate. So the 
dollars aren't being used very effectively if your return on 
investment goes down significantly--if you only have 20 percent 
usage.
    One of the things that I think is really changing the face 
of what we're doing with the initiative and changing the face 
of the industry is the implementation of the IT Workforce 
Development Roadmap, which was a partnership with the Federal 
CIO Council, where we have actually taken the career paths of 
the 2210 series and the 10 parenthetical titles, mapped those 
out and aligned competencies and efficiency levels at each 
level. That's a good start.
    It's a marriage that we've done, where you actually do a 
skill assessment, and if you have skill gaps, you have online 
content available right at your fingerprints to address those 
skill gaps. That paradigm shift is going to change the way e-
Learning is implemented in agencies and that you just hope 
people go to a more strategic look at where are your core 
critical competencies, where are your skill gaps, and how do 
you address those and resource those. I think it's going to 
provide a stronger tool for leadership to feel better about 
their investment in these activities, because they can start to 
see over a continuum a development of their human capital.
    The second thing I wanted to say, there has been a lot of 
industry buzz around the e-Training initiative and the use of 
the STATUS contract. We have recognized that contract was 
awarded several years ago, and we are in the throes, the 
process, of announcing a GoLearn-specific IDIQ here soon, which 
will give an opportunity for e-Learning vendors, whether it be 
courseware providers or learning management system providers, 
to compete again to get on the e-Training initiative contract 
vehicle.
    Mr. Putnam. Mr. White, you have been on the job a week and 
you have already been called to Congress to testify under oath. 
Been a tough week.
    Mr. White. It has, in addition to Isabel.
    The e-Clearance initiative has brought together a new 
dialog across the investigating agencies. And as a result of 
this dialog, the standards and specifications are occurring 
across these various agencies. And what is happening here is, 
they look and they recognize that they need to share 
information.
    Our new imaging module provides a vehicle for which all of 
these agencies have to develop a common taxonomy, a common 
standard of how the investigation process needs to be 
referenced, how documents are cataloged; and it has brought 
together a focus on tackling some of the tough issues that 
stand in the way of slower processing of clearances, for 
example.
    E-clearance has gained quite a bit of momentum in tackling 
the e-QIP form and establishing the repository of information 
to quickly verify clearance information. Bringing together and 
satisfying the Government Paperwork Elimination Act with the 
imaging module has brought about quite a bit of improvement and 
gained quite a bit of recognition. We only look for further 
enhancements in terms of establishing perhaps a communication 
network where these various agencies can collaborate even more 
effectively to reduce the backlog of investigations.
    Mr. Putnam. Well, thank you all very much. I appreciate 
your enthusiasm for what you do, and I can only say it's a poor 
frog that won't croak in his own pond, so I wanted to give you 
the opportunity to tell the world about what you're doing. It 
is transformation. It is a tremendous challenge. You are going 
to face a lot of resistance, but it's going to be worth the 
effort. And you need to have Mr. Enger here buy you lunch.
    So, with that, I want to thank all of our witnesses for 
your participation.
    In the event that we were unable to get to questions--I 
can't imagine that there's any questions that we didn't get to 
after this hearing--but in the event that there are questions 
that we were unable to get to, the record will remain open for 
2 weeks, and we would ask that you submit those in writing.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3035.051

[GRAPHIC] [TIFF OMITTED] T3035.052

[GRAPHIC] [TIFF OMITTED] T3035.053

[GRAPHIC] [TIFF OMITTED] T3035.054

[GRAPHIC] [TIFF OMITTED] T3035.055

[GRAPHIC] [TIFF OMITTED] T3035.056

[GRAPHIC] [TIFF OMITTED] T3035.057

[GRAPHIC] [TIFF OMITTED] T3035.058

[GRAPHIC] [TIFF OMITTED] T3035.059

[GRAPHIC] [TIFF OMITTED] T3035.060

[GRAPHIC] [TIFF OMITTED] T3035.061

[GRAPHIC] [TIFF OMITTED] T3035.062

[GRAPHIC] [TIFF OMITTED] T3035.063

[GRAPHIC] [TIFF OMITTED] T3035.064

[GRAPHIC] [TIFF OMITTED] T3035.065

[GRAPHIC] [TIFF OMITTED] T3035.066

[GRAPHIC] [TIFF OMITTED] T3035.067

[GRAPHIC] [TIFF OMITTED] T3035.068

[GRAPHIC] [TIFF OMITTED] T3035.069

[GRAPHIC] [TIFF OMITTED] T3035.070

[GRAPHIC] [TIFF OMITTED] T3035.071

[GRAPHIC] [TIFF OMITTED] T3035.072

[GRAPHIC] [TIFF OMITTED] T3035.073

[GRAPHIC] [TIFF OMITTED] T3035.074

[GRAPHIC] [TIFF OMITTED] T3035.075

[GRAPHIC] [TIFF OMITTED] T3035.076

[GRAPHIC] [TIFF OMITTED] T3035.077

[GRAPHIC] [TIFF OMITTED] T3035.078

[GRAPHIC] [TIFF OMITTED] T3035.079

[GRAPHIC] [TIFF OMITTED] T3035.080

[GRAPHIC] [TIFF OMITTED] T3035.081

[GRAPHIC] [TIFF OMITTED] T3035.082

[GRAPHIC] [TIFF OMITTED] T3035.083

[GRAPHIC] [TIFF OMITTED] T3035.084

[GRAPHIC] [TIFF OMITTED] T3035.085

[GRAPHIC] [TIFF OMITTED] T3035.086

[GRAPHIC] [TIFF OMITTED] T3035.087

[GRAPHIC] [TIFF OMITTED] T3035.088

[GRAPHIC] [TIFF OMITTED] T3035.089


</pre></body></html>
